<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 117-69]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 117-69
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                             ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
45-566 PDF                WASHINGTON : 2021        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 14, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3

                              LEGISLATION

Presidential Nomination 490, Alejandra Y. Castillo, of New York, 
  to be Assistant Secretary of Commerce for Economic Development.     6
Presidential Nomination 538, Jane Toshiko Nishida, of Maryland, 
  to be an Assistant Administrator of the Environmental 
  Protection Agency..............................................     7


                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JULY 14, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 9:50 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Merkley, Duckworth, Stabenow, Kelly, Padilla, Inhofe, and 
Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everyone. I am pleased to 
call this meeting of the Environment and Public Works Committee 
to order. We welcome our guests and look forward to a 
productive business meeting.
    Today, as you know, our Committee will vote on whether to 
move to the full Senate two outstanding nominees for offices 
within the Department of Commerce and Environmental Protection 
Agency. Those votes will take place in just a few minutes. 
After that voting is concluded, we will proceed to hold a 
hearing on the nomination of Michael Lee Connor to serve as 
Assistant Secretary of the Army for Civil Works.
    First, I will say a few words about the two nominees whom 
the Committee will vote on here shortly, and they are Alejandra 
Castillo, who has been nominated to serve as Assistant 
Secretary of Commerce for Economic Development, and Ms. Jane 
Nishida, who has been nominated to serve as EPA Assistant 
Administrator for Tribal and International Affairs.
    They are exceptional individuals and are well prepared to 
serve in the positions to which they have been nominated. Both 
are established Federal Government leaders. If confirmed, they 
will bring decades of leadership experience to EPA and to the 
Economic Development Administration.
    We had the opportunity to hear, and I recall, to hear from 
each of them at our hearing last month, and both of them did, I 
thought, an exceptional job of demonstrating why they have 
earned the respect and confidence not only of our President, 
but also with so many former executive branch colleagues on 
both sides, both sides of the aisle. I am grateful that both of 
them have agreed to serve our country once again, and I urge 
our colleagues to support their confirmations.
    Now, I would like to turn to Michael Connor, who is seated 
right in front of us, along with his daughter and his wife. I 
am going to turn to Michael, from whom we will hear today. 
President Biden has nominated Mr. Connor to serve as Assistant 
Secretary of the Army for Civil Works. As we all know, this is 
a critical leadership position for the U.S. Army Corps of 
Engineers.
    The Corps of Engineers Civil Works Program is the Nation's 
primary provider of water resources infrastructure, and with 
more extreme weather events and our changing climate, that work 
has never been more important to ensure that we are building 
resilient infrastructure that protects the American people whom 
we represent.
    Protecting the American people is particularly critical to 
those who need help the most. They include communities of 
color, as well as rural, Tribal, and economically disadvantaged 
communities across our country.
    As a descendant of the Taos Pueblo, Mr. Connor brings a 
unique perspective and has built a career advocating for Indian 
Country and Tribal water rights. He understands the importance 
of reaching those communities that have not benefited enough 
from Federal investments, and he knows how to do it.
    Mr. Connor has the experience and character to be 
successful in this role. During the Obama administration, he 
served as Deputy Secretary of the Interior, where he managed 
complex natural resources challenges for the benefit of our 
Nation. He has proven himself to be a capable leader and is 
more than ready to meet the robust and varied responsibilities 
of this position to which he has been nominated.
    If confirmed, Mr. Connor will lead efforts that 
dramatically impact every corner of this country, from coastal 
to inland to rural communities. All of these regions have 
unique water challenges, from navigation to flood control to 
ecosystem restorations, all of which are managed by the Army 
Corps.
    If confirmed, Mr. Connor will have to balance a wide range 
of complex and critical interests. To better ensure that he is 
successful in doing so, I recommend that he visit as many of 
these communities throughout our country as possible in order 
to garner a broader understanding of the challenges that they 
face, and he must meet all those demands with limited 
resources.
    Due to the persistent underfunding in recent years, the 
backlog of authorized but not completed projects has grown to 
$109 billion. That is more than 15 times the agency's annual 
operating budget, and that should be something of concern to 
all of us.
    The Corps shares responsibility for water infrastructure 
investments with State and local governments, and this 
shortfall is clear evidence that the Federal Government has not 
been holding up our end of the bargain for some time.
    With that said, there is no simple solution to this 
problem, as we know. Should he be confirmed, though, Mr. Connor 
will quickly become a key figure in endeavoring to ensure that 
bipartisan concerns about Corps funding and priorities are 
addressed. I look forward to hearing his thoughts on these and 
other important matters.
    With that, I am happy to turn our attention to our Ranking 
Member, Senator Capito, for her opening remarks.
    Senator Capito, please.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, and thanks for 
calling this business meeting and hearing today.
    First, I would like to speak briefly on the two nominations 
that we are voting on today. I am pleased to support the 
nomination of Alejandra Castillo to be Assistant Secretary for 
EDA at the Department of Commerce, an important position for my 
State. I appreciated Ms. Castillo's support for some of the key 
initiatives that impact my State, particularly broadband 
development.
    I am also pleased to vote in favor of reporting the 
nomination of Jane Nishida to be Assistant Administrator for 
International and Tribal Affairs at the Environmental 
Protection Agency. I appreciate the service Ms. Nishida has 
given over the years and her responsiveness to my questions for 
the record.
    We also gather today to consider the nomination of Michael 
Connor to serve as Assistant Secretary of the Army for Civil 
Works.
    Welcome, Mr. Connor. I appreciated the opportunity to talk 
with you earlier this week.
    As you agreed during our conversation, the U.S. Army Corps 
of Engineers can and should improve its operations and more 
efficiently deliver important water resources projects, both in 
West Virginia and across our country.
    Tasked with overseeing the Corps' Civil Works Program, the 
Assistant Secretary position for which you are nominated is 
integral to decisions pertaining to our Nation's water 
resources and infrastructure.
    The Corps' activities through navigation, flood risk 
management, and ecosystem restoration enable economic growth, 
save lives, and support conservation.
    In 2019, approximately 2.3 short tons of waterborne 
commerce moved in the United States, facilitated by our 
Nation's ports and an inland waterway system dredged, 
constructed, and maintained by the Corps. It actually goes 
right by my house, about a quarter of a mile, too. This 
includes everything from energy commodities to the goods 
Americans depend on in their lives every day.
    The Corps' flood risk management activities provided $348 
billion in benefits to the national economy in 2019 alone.
    These are in addition to other important mission areas, 
from hydropower to recreation and environmental infrastructure. 
These projects and activities are authorized and directed under 
the biennial Water Resources Development Act, we call it WRDA, 
which is legislation developed by this Committee.
    As I stated at our most recent meeting, I look forward to 
building on the bipartisan consensus that we have already 
achieved on water and surface transportation infrastructure 
legislation in this Committee and moving a WRDA bill to 
enactment.
    The cooperation of the Assistant Secretary's office will be 
integral to this process, as well as the ability of this 
Committee to track implementation of prior WRDA legislation.
    That being said, I am troubled by language included in 
support documents for the President's fiscal year 2022 budget 
that devalues investments in Corps projects that facilitate 
American energy independence. This will have real world impacts 
for my State of West Virginia, and as we learned from a Corps 
stakeholder at a recent meeting, will hinder development of key 
infrastructure and energy projects, like offshore wind 
projects, critical to this Administration's professed climate 
goals.
    I am also very concerned about this Administration's recent 
decision to replace and repeal the 2020 Navigable Waters 
Protection Rule, as well as the lack of transparency in the 
decisionmaking process and the rationale provided by the Corps 
and the EPA.
    Underpinning the Administration's decision were several 
assertions that have yet to be substantiated by evidence of 
practical environmental harm. Instead, the absence of Federal 
jurisdiction is cited as de facto evidence of environmental 
harm. It also remains unclear which stakeholders were consulted 
prior to making this decision.
    I look forward to hearing Mr. Connor's views on these 
matters and other issues pertaining to the Corps. His years of 
experience, and the Chairman enumerated those, both in the 
private sector, this body, and in leadership positions at the 
Department of Interior, speak to his capability and knowledge 
of water resource issues.
    The missions of the Corps and the Bureau of Reclamation do 
differ in certain respects, and I hope to learn more about how 
he will approach this important position for which he is 
nominated.
    Thank you, Mr. Chairman. I yield back my time.
    Senator Carper. Thank you so much.
    Now, I would like to call up two presidential nominations, 
on which we will vote en bloc.
    First, I call up Presidential Nomination 490, Alejandra 
Castillo of New York to be Assistant Secretary of Commerce for 
Economic Development.
    Second, I want to call up Presidential Nomination 538, Jane 
Nishida of Maryland to be the Assistant Administrator for 
International and Tribal Affairs of the Environmental 
Protection Agency.
    Yes, sir.
    Senator Inhofe. I had the opportunity to get to know both 
individuals, and I just want to say that they are excellent 
choices. I have had extensive conversations with both of them 
and look forward to serving with them.
    Senator Carper. Thank you very much. I know they appreciate 
that. I do, too.
    OK, anyone else?
    Hearing none, I move to approve and report these 
nominations favorably to the Senate.
    Is there a second?
    Senator Capito. Second.
    Senator Carper. Thank you.
    All in favor, say aye.
    [Chorus of ayes.]
    Senator Carper. All opposed, say nay.
    [No audible response.]
    Senator Carper. In the opinion of the Chair, the ayes have 
it.
    The nominations are favorably reported, and the voting 
portion of this meeting is concluded.
    [Whereupon, at 10:02 a.m., the Committee proceeded to other 
business.]
    [The referenced nominations follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
  
                <all>
</pre></body></html>
